CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and accurate copy of the following was
served upon the Office of the Solicitor General of the United States, U.S.
Department of Justice on this the 9th day of May, 2020:
Motion to Proceed in Forma Pauperis;
Affidavit of Indigency;
Petition for Writ of Certiorari.

Steven R. Kiersh

l

I
In The
SUPREME COURT OF THE UNITED STATES
Michael D. Bikundi, Sr.
v.
United States of America
AND FLORENCE BIKUNDI,

Respondents
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and accurate copy of the foregoing
Motion and Petition were served, via regular mail, upon the Office of the
solicitor General of the United States on this the 2nd day of March
2020.
STEVEN R. KlERSH

Counsel of Record
5335 Wisconsin Avenue, N.W.,Suite 440
Washington, D.C.20015
Skiersh@aol.com
Counsel for Petitioner
Michael Bikundi
Member of the Bar of the
United States Supreme Court

